     THE FEDERAL BUREAU OF
INVESTIGATION’S IMPLEMENTATION
OF THE LABORATORY INFORMATION
      MANAGEMENT SYSTEM

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 06-33
               June 2006
THE FEDERAL BUREAU OF INVESTIGATION’S IMPLEMENTATION
 OF THE LABORATORY INFORMATION MANAGEMENT SYSTEM


                       EXECUTIVE SUMMARY

       The Federal Bureau of Investigation’s (FBI) laboratory is one of
the largest and most comprehensive forensic laboratories in the world.
The laboratory, which conducts over one million examinations of
physical evidence annually, supports FBI investigations and provides
forensic and technical services to other federal, state, and local law
enforcement agencies. The FBI manages the flow of evidence through
the laboratory in a largely paper-based process, with a limited “in-and-
out” database that shows when an item enters the laboratory for
testing, when analyses are performed, and when the item leaves the
laboratory. However, the FBI cannot readily determine where the
evidence is during the examination process and what work remains to
be completed. The FBI also does not have the capability to generate
statistical reports to help manage laboratory operations, such as how
long it takes to examine evidence or where delays might occur.

      To provide a modern information system that would allow the
FBI to better track and manage evidence as it passes through the
laboratory, the FBI’s Laboratory Division awarded a $1.6 million
contract, with 4 additional option years for a total of $4.3 million, to
JusticeTrax, Inc. in September 2003. The contract was to provide the
FBI with JusticeTrax’s commercial off-the-shelf (COTS) Laboratory
Information Management System (LIMS). 1 The JusticeTrax LIMS was
intended to allow the tracing and tracking of evidence using bar-code
technology and provide a variety of reporting capabilities.

       However, after many delays and extensive customization of the
COTS LIMS, the system was unable to meet the FBI’s security
requirements. In January 2006, the FBI notified JusticeTrax that the
FBI had terminated the LIMS contract. In March 2006, the FBI and
JusticeTrax agreed to a settlement that terminated the LIMS contract,
resulting in an overall loss to the FBI of $1,175,015.


      1
         The JusticeTrax product is known as LIMS-plus, but we refer to the system
as LIMS throughout this report.

                                       -i-
      The OIG performed this audit to determine the status of the
LIMS project, assess the Information Technology Investment
Management (ITIM) processes and other management controls over
the project, and determine the overall project costs. We found that
the LIMS project was poorly managed. In addition, JusticeTrax was
unable to meet the FBI’s more rigorous requirements implemented as
a result of information technology (IT) system security breaches. With
LIMS not able to obtain security certification and accreditation, coupled
with other disadvantages such as the delayed implementation of a
web-browser interface, the FBI terminated the contract. Although the
FBI has now improved ITIM processes through its Life Cycle
Management Directive (LCMD) and has established other improved
controls, the failure of the system results in the FBI laboratory
continuing to operate without an effective information system to
adequately trace the flow of evidence through the laboratory.

Background

      To track evidence arriving and leaving the laboratory, the FBI
continues to use the Evidence Control System (ECS) that was created
in 1978 and converted into a database in 1998. The FBI uses the ECS
to record when an item of evidence is received by the laboratory for
analysis, when analyses are performed, and when the item is released
by the laboratory back to its originator. In comparison to the ECS’s
limited database, a modern laboratory information system can provide
a much greater level of functionality, including: the ability to trace
evidence throughout the analysis process; Internet capabilities that
allow external agencies to review and request information about
evidence they have submitted; extensive reporting, workload analysis,
and responses to ad-hoc querying; and data searching regarding the
disposition of evidence.

FBI’s LIMS Project

       In 1998, the FBI’s Laboratory Division hired a contractor to
develop requirements for a more functional information system.
However, the implementation of such a system was not fully funded
until the Laboratory Division reprogrammed money from its own
projects to fund the development in 2002. By this time, the system
requirements needed to be upgraded. In February 2003, the FBI
issued a Request for Proposal (RFP) for a laboratory information
management system.

                                  - ii -
      The FBI received six responses to the RFP. Cost and technical
committees comprised of personnel from the FBI’s Finance and
Laboratory Divisions evaluated the proposals. In September 2003, the
FBI awarded JusticeTrax, Inc., of Mesa, Arizona, a $4.3 million firm-
fixed-price contract to provide its LIMS product to the FBI. 2 The FBI
selected JusticeTrax because it submitted the lowest cost bid and had
an exceptional technical evaluation. According to JusticeTrax’s
proposed project plan, LIMS installation, training, and roll-out would
be completed in December 2003, 90 days from the contract award.

Schedule Delays

       Although JusticeTrax planned to install the LIMS software within
90 days of the September 2003 contract award, a number of problems
arose: (1) JusticeTrax’s president was a foreign national and thus not
eligible to be involved in the development of the software for the FBI;
(2) all JusticeTrax personnel lacked security clearances; and
(3) although extensive software customization was required to meet
FBI requirements, the LIMS used an outdated programming language
that made modifying the software difficult and time-consuming.

      The RFP for the information system stated that non-U.S. citizens
may not have access to or be involved in the development of any
Department of Justice IT system. By signing the contract or
commitment document, the contractor agreed to this condition, even
though the JusticeTrax president was not a U.S. citizen. However,
after a security assessment, the FBI determined the risk was low and
decided to continue with JusticeTrax. In April 2004, the JusticeTrax
president signed a non-disclosure agreement to not access or assist in
the development, operation, management, or maintenance of the FBI’s
LIMS. In September 2004, 1 year after the contract was signed, the
JusticeTrax president became a U.S. citizen and the non-disclosure
agreement was rescinded.

      Another obstacle to the timely implementation of the LIMS
system was the lack of security clearances for JusticeTrax employees.
The background investigations to obtain security clearances took from
3 to 8 months.
       2
         The contract included a base year award of $1.6 million and four additional
1-year option contracts. The base year was September 2003 to September 2004.
The contract also included cost-reimbursable delivery orders to convert the legacy
ECS data to the new LIMS-plus system.

                                       - iii -
      The third problem was the FBI’s numerous customization
requests to tailor LIMS to the FBI’s specific needs. The customization
was a slow process because the JusticeTrax LIMS relies on an aging
code format, Visual FoxPro. 3 While Visual FoxPro is outdated, it is still
compatible with today’s technology. However, according to FBI
personnel, Visual FoxPro is difficult and slow to customize compared to
newer programming languages. While the extent of customization was
the main obstacle, having to use the old code increased the delays.

FBI’s Project Controls

      The FBI had no management control structure in place for LIMS
such as establishing firm cost, schedule, technical, and performance
benchmarks. The FBI also did not have a specific IT project manager
for the LIMS project. Instead, the FBI relied on two contracting
personnel to oversee the project as part of their contract-related
duties. However, about 4 months after the FBI awarded the LIMS
contract, there was turnover in these two key positions.

       The FBI awarded the LIMS contract prior to the development and
implementation of the FBI’s Life Cycle Management Directive.
However, upon the LCMD’s implementation in November 2004, the FBI
required all IT projects to follow the LCMD and meet the requirements
for the stage of development the project had achieved. In May 2005,
over a year after the LIMS was to be implemented, the FBI’s
Information Management Project Review Board (IMPRB), one of the
FBI’s IT investment boards, reviewed the LIMS project. During this
review, Laboratory officials explained that although there were delays
in implementing LIMS, the system could function and JusticeTrax had
completed training the system’s users. However, LIMS had not yet
achieved all of the FBI’s requirements, such as being a web-based
system, and it was unlikely that the project would pass the FBI’s
certification and accreditation (C&A) testing to ensure the security of
the system. FBI officials agreed that if the project could not pass C&A,
then the project should be cancelled. An IMPRB member
recommended that a Red Team be assembled to review the
procurement and consider alternatives. 4


      3
        Visual FoxPro, first developed by Fox Software in 1984, is a programming
language used to develop database applications.
      4
         Red Teams review and advise on FBI IT projects that miss cost, schedule,
or performance thresholds.
                                      - iv -
       The Red Team included members from the FBI’s Laboratory
Division, Office of General Counsel, Office of the Chief Information
Officer (CIO), Finance Division, and ITOD. The Red Team review
began in July 2005, and the team presented its findings, conclusions,
and recommendations to the FBI’s CIO in October 2005. The Red
Team recommended terminating the JusticeTrax contract because the
LIMS system could not pass C&A, and additional work would not rectify
the security weaknesses. In addition to the lack of a web-browser
interface, identified deficiencies included several security
vulnerabilities related to the lack of auditable records, insecure
transmission between client and server, and a technical architecture
that did not meet chain-of-custody requirements. In lieu of LIMS, the
Red Team suggested the FBI use a standard COTS workflow software
package already licensed to the FBI.

      The FBI’s CIO stated the LIMS contract was awarded before the
FBI’s IT investment management controls were implemented, and that
LIMS is an example of the success of the FBI’s new ITIM processes
because the problems with the project were quickly identified for
resolution based on the IMPRB review.

Certification and Accreditation

       The C&A program is the FBI’s management control for ensuring
the adequacy of computer system security. The FBI’s Security Division
tests the security of all new IT systems and approves the C&A if it
deems a system secure. The testing ensures that the FBI’s IT systems
have an approved baseline security configuration and that the systems
present little or no risk to FBI systems or data. The FBI required the
C&A process to be completed and approval to operate the system be
obtained from the Security Division before the LIMS system could be
made operational. Although the RFP included the requirement for
security to be part of the system, specific guidance on the LCMD C&A
requirements had yet to be established at the time the contract was
awarded and was not provided to JusticeTrax until August 2005 when
the FBI provided the results of the FBI Security Division’s LIMS
Certification Test Report to JusticeTrax. The C&A testing delayed and
then prevented the implementation of LIMS, and it ultimately led to
the termination of the contract.

      In September 2005, the Security Division began system testing,
which resulted in a Certification Test Report identifying 14 security
vulnerabilities in the LIMS system. In October 2005, the Security
                                   -v-
Division recommended against accrediting the system based on these
high-risk vulnerabilities, which could not be mitigated due to the
inherent design of the system. One weakness cited by the Security
Division was the inability of LIMS to meet the confidentiality and
integrity requirements for protecting evidentiary or grand jury data.
The certifier recommended against granting an approval to operate.
Because of these critical security flaws, the FBI determined that LIMS
could not be used.

Contract Termination

      The FBI became aware of delays and deficiencies with
developing the LIMS system early in the contract period. While the
LIMS software is functional, it has major deficiencies for FBI use,
including the lack of a web-browser interface and numerous security
vulnerabilities. Although the FBI and JusticeTrax signed the contract
in September 2003, with the project to be implemented in 90 days,
delays resulted in no-cost extensions through December 2005.

       In December 2004, the FBI issued a Show Cause Notice to
JusticeTrax stating that it failed to meet the deadline for the initial
implementation of the system. 5 JusticeTrax responded that the delays
resulted from requirements not immediately apparent in the contract
and that it did not have detailed information regarding the C&A
process and what would be tested. Early in 2005, the FBI issued a
letter to JusticeTrax stating the results of the initial security review of
the LIMS system during the C&A testing process and identifying
security risks that had to be corrected before further certification
testing could proceed.

       In October 2005, the FBI issued a Cure Notice to Justice Trax
stating that the LIMS system was not able to successfully pass the
FBI’s Security C&A Testing. 6 In the Cure Notice the FBI identified two
outstanding concerns, the lack of auditable records (known as
administrative shares) and the lack of a fully functional web-browser
interface. JusticeTrax tried to resolve the security concerns, including

       5
          A contracting agency sends a Show Cause Notice to the contractor when
problems occur. The notice includes a description of the problems and a timeframe
for resolving the problems.
       6
         A cure notice specifies to the contractor the problems requiring correction
and establishes a timeframe for doing so.

                                        - vi -
the lack of auditable records, but the FBI’s Security Division found that
the actions taken did not adequately resolve the concerns. JusticeTrax
intended to work on the web-browser interface at a later date.
However, in its response to the RFP, JusticeTrax had committed to
providing the web-browser interface by early 2004.

      At the end of October 2005, the FBI issued a Stop-work Order to
JusticeTrax, and in January 2006 issued a contract termination letter. 7
In March 2006, the FBI and JusticeTrax agreed to terminate the
contract for the convenience of the government. The FBI agreed to
pay JusticeTrax an additional $523,932, and the contractor waived any
claims arising from the contract.

      In addition to considering other COTS workflow management
systems to meet its information management needs, we recommend
that the FBI consider systems being developed by other Department of
Justice components. For example, we found that the Drug
Enforcement Administration (DEA) and the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) are both working on laboratory
information systems.

Costs

      The base-year budget beginning September 2003 for the
JusticeTrax contract was $1.6 million, with a total contract budget of
$4.3 million including four additional 1-year contract options. Prior to
the Red Team’s decision to recommend terminating the LIMS contract,
the FBI paid JusticeTrax a total of $856,219. We reviewed and verified
that all expenses were supported by invoices. Consistent with the
contract, the FBI Laboratory Division purchased hardware from
JusticeTrax, including bar-coding equipment, totaling $205,136. The
equipment purchased can be used within the laboratory separate from
the LIMS system.

     In January 2006, the FBI ended the LIMS project, and in March
2006 the FBI and JusticeTrax agreed to terminate the contract for the

        7
         According to the Federal Acquisition Regulation, situations may occur during
contract performance that cause the government to order a suspension of work, or a
work stoppage. A Stop-work Order may be issued in any negotiated fixed-price or
cost-reimbursement supply, research and development, or service contract due to
advancement in the state-of-the-art, production or engineering breakthroughs, or
realignment of programs.

                                       - vii -
convenience of the government. The FBI agreed to pay a settlement
of $523,932 to the company in addition to the money already spent on
developing the system and obtaining hardware. Therefore, the FBI
spent a total of $1,380,151 on the project. With only the hardware
usable, the FBI lost $1,175,015 on the unsuccessful LIMS project.

JusticeTrax’s Observations

       During our fieldwork, we met with JusticeTrax officials to discuss
their perspective on the LIMS contract. In the opinion of the officials,
the failure of the LIMS project was due to the FBI’s lack of
communication, information sharing, and resources. Also, JusticeTrax
said the FBI should have provided a champion, or advocate, to ensure
the success of the project. Finally, JusticeTrax stated that the FBI held
JusticeTrax to requirements that were not in the contract. JusticeTrax
acknowledged the contract included a provision for security but said it
had no details about the C&A requirements. We agree with
JusticeTrax that the FBI did not include specific details in the contract
on how to meet the C&A requirements.

Conclusion

       The failure to implement the LIMS system and the resulting loss
of nearly $1.2 million in the attempt should be attributed to both the
FBI and JusticeTrax. The project began before the FBI had established
its ITIM processes, and those subsequent processes helped identify
problems with the project that ultimately led to terminating the
contract before losing additional money. The FBI did not do its
homework before awarding the contract, including adequately
identifying and assessing the risks in selecting JusticeTrax when the
company’s COTS LIMS product had to be vastly modified. The FBI had
a responsibility to not only ensure that JusticeTrax understood the
system requirements, but also that JusticeTrax had the technical
capacity to fulfill the requirements. The FBI did not adequately
document for JusticeTrax the security requirements for certification
and accreditation of the LIMS software and, to the extent security
requirements evolved, did not clarify those changes through contract
modifications.

      The FBI should have assessed the problems and delays inherent
in requiring major modifications to tailor a COTS system, especially
one based on an outdated code. Firmly managed schedule, cost,
technical, and performance benchmarks would have raised warning
                                 - viii -
signs earlier in the project and perhaps led to resolution much more
rapidly. Among the FBI’s weaknesses was the lack of established IT
management processes when the project began and the failure to
designate a LIMS project manager to oversee the implementation of
the project. Also, two key contracting positions experienced turnover
within months after the contract award.

      Because JusticeTrax did not provide cleared personnel to work
on the system and its president was not a U.S. citizen, JusticeTrax
contributed to the early delays in getting the project started. It was
incumbent upon JusticeTrax to meet all FBI requirements for the
system, including mandatory security protections and a web-browser
capability. However, JusticeTrax is correct in that some requirements
were unknown at the start of the project. JusticeTrax’s use of
outdated code also made modifications difficult and time-consuming.
JusticeTrax did not properly assess its ability to perform the work
required to adapt its system to operate in the FBI environment. In
addition, while JusticeTrax intended to make its system web-based,
the delays in the project prevented that before the contract was
terminated.

      Because JusticeTrax was unable to address unacceptable
security vulnerabilities, the FBI terminated the LIMS contract. The
FBI’s Laboratory Division continues to lack a modern system to track
evidence through the laboratory and otherwise manage its laboratory
operations. It remains difficult to determine the location and status of
evidence at any given point in time or to determine how long the
process is taking. We believe the FBI should consider adopting a
COTS workflow system for its laboratory information system or an
acceptably secure system used by another federal law enforcement
entity, such as the Drug Enforcement Administration or Bureau of
Alcohol, Tobacco, Firearms and Explosives, if it meets the FBI’s needs.

      We agree with FBI officials who stated that the FBI’s LCMD
should prevent problems such as those encountered with LIMS if the
processes are applied as intended with detailed requirements for the
contracting process, management oversight boards, and other controls
to ensure troubled projects are identified sooner and remedied.




                                 - ix -
OIG Recommendations

       We make three recommendations for the FBI to help ensure the
FBI’s laboratory meets its need for an information management
system. The recommendations are summarized below.

     •   Consider whether a COTS workflow system or laboratory
         information management system currently in use or under
         development within the federal government will meet the
         needs of the FBI laboratory.

     •   Ensure that any future laboratory information management
         system follows the FBI’s LCMD and is overseen by an
         experienced IT project manager.

     •   Establish cost controls to ensure that training or other
         expenses are not incurred prematurely in the development of
         a successor to the LIMS project.




                                -x-
                              TABLE OF CONTENTS



INTRODUCTION ....................................................................... 1
    Background...................................................................... 1
    Prior Reports ................................................................... 6


FINDINGS AND RECOMMENDATIONS........................................ 7
Inadequate Management of the Laboratory Information
     Management System Project............................................ 7
       Project Delays .................................................................... 7
       LCMD Review Board .......................................................... 10
       Termination of the Project .................................................. 13
       Laboratory Division’s New Review Process ............................ 14
       Project Costs .................................................................... 15
       LIMS Alternatives.............................................................. 16
       Conclusion ....................................................................... 17
       Recommendations............................................................. 19


STATEMENT ON COMPLIANCE WITH LAWS AND
    REGULATIONS................................................................ 20
STATEMENT ON INTERNAL CONTROLS.................................... 21
APPENDIX 1: OBJECTIVES, SCOPE, AND METHODOLOGY ....... 22
APPENDIX 2: ACRONYMS....................................................... 23
APPENDIX 3: PRIOR REPORTS ON THE FBI’S INFORMATION
    TECHNOLOGY ................................................................. 24
APPENDIX 4: THE FBI’S LIFE CYCLE MANAGEMENT
    DIRECTIVE..................................................................... 29
APPENDIX 5: THE FBI’s RESPONSE TO THE DRAFT REPORT ... 33
APPENDIX 6: OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS
    NESSESARY TO CLOSE REPORT ...................................... 40
                           INTRODUCTION

Background

      The collection, preservation, and forensic analysis of physical
evidence are often crucial to the successful investigation and
prosecution of crimes. The Federal Bureau of Investigation’s (FBI)
laboratory, located in Quantico, Virginia, is one of the largest and most
comprehensive forensic laboratories in the world. The laboratory not
only supports FBI investigations, but also provides forensic and
technical services to federal, state, local, and foreign law enforcement
agencies. The FBI’s laboratory annually conducts over one million
examinations involving analyses of physical evidence ranging from
blood and other biological materials to explosives, drugs, and firearms.
Laboratory examiners also provide expert witness testimony on the
results of forensic examinations.

      To keep a record of evidence provided to the laboratory for
analysis, the FBI uses the Evidence Control System (ECS), created in
1978. The Laboratory Division converted this antiquated system to a
database in 1998, but the ECS still has limited functionality. One FBI
programmer developed the current version of ECS, and as new
releases of database software become available, the database has
been upgraded. The FBI currently uses Microsoft’s Access 2002 as the
ECS database software.

      The ECS system represents an “in and out” tracking system.
Evidence is entered into the system when it arrives at the laboratory,
and the system documents: (1) the control number for the evidence,
(2) when an analysis has been performed on the evidence, and
(3) when the evidence leaves the laboratory. Except for this
information in the ECS, the laboratory relies completely on paper
documentation that follows a piece of evidence as it passes through
the laboratory’s various sections. Each section of the laboratory enters
data into its own computers. However, these files are immediately
printed out and paper copies, rather than an electronic file, are relied
on to track the evidence and the work performed. In addition, the
data entered into a section’s individual computers are not linked to
provide an overall management view of where the evidence is located,
what analyses have been completed, or how long each step of the
process is taking.



                                  - 1-
      One laboratory official described the current system as very
limited, and stated that when evidence is returned to the originator, its
departure from the laboratory is not always entered into the ECS. As
a result, FBI managers are unable to identify with certainty the
evidence contained in the laboratory at any point in time or its
progress in being examined and analyzed. Moreover, another
laboratory official stated that only one person is familiar with the ECS
database, a programmer from the FBI’s Information Technology
Operations Division (ITOD). The laboratory employee who created the
original system has retired. The official also pointed out that despite
available technology, the FBI continues to use a labor-intensive
manual system. Each laboratory unit enters the same routine
information, such as case number, date collected, and the submitting
agency, for each item of evidence as it is passes from one unit to
another for continued processing.

      In comparison to the laboratory’s limited database, modern
commercial-off-the-shelf (COTS) laboratory information systems can
provide many useful functions, including: the ability to track evidence
throughout the analysis process; Internet capabilities that allow
external agencies to review and request information about evidence
they have submitted; extensive reporting, workload analysis, and
responses to ad-hoc querying; on-line help; and data searching.

Pre-acquisition Activities

      The FBI’s laboratory hired a contractor in 1998 to assist in the
development of requirements for an information management system
to replace the ECS. The contractor also evaluated COTS systems.
However, the FBI’s Laboratory Division was unable to fund the project
at that time.

       In 2002, the Laboratory Division reprogrammed funds to replace
the ECS with a modern information system. The system requirements
developed by the contractor in 1998 were updated and validated
through Joint Application Development (JAD) sessions. 8 JAD session
participants included FBI personnel from the laboratory and other
divisions. A contractor assisted with IT support and administrative
tasks related to the proposed project, including facilitating and
documenting the JAD sessions. The requirements resulting from the

      8
         JAD sessions, attended by system users and others interested in developing
information technology (IT) solutions, help evaluate system requirements.

                                       - 2-
JAD sessions were then used in developing a Request for Proposal
(RFP), issued in February 2003 to solicit bids for developing the new
system.

     A firm-fixed-price contract with a base year and four additional
1-year option contracts was to provide the laboratory with: 9

       •   a customized COTS information management system;

       •   bar-code peripheral devices and software, used to label and
           track evidence as it enters the laboratory;

       •   training;

       •   help desk services, maintenance, and operational support;
           and

       •   technical enhancements and upgrades to the application
           software.

The statement of work explained that the new system would:

       •   streamline the examination process,

       •   track evidence through the examination process,

       •   provide quality and inventory control, and

       •   provide management information relating to efficiency
           measures.

For example, if another laboratory needed any information on an item
of evidence, FBI management would be able to log into the system,
easily locate the evidence, and determine where the evidence was in
the laboratory examination process and what needed to be completed.
Laboratory managers would also be able to determine the length of
time the evidence was at each stage of the testing and analysis.


       9
          A firm-fixed-price contract provides for a price that is not subject to
adjustments for the actual costs in performing work under the contract. The
contract for the information system also provided for cost-reimbursable delivery
orders to migrate the ECS data into the new system. Cost-reimbursable contracts
pay allowable incurred costs to the extent prescribed in the contract.

                                       - 3-
      The FBI also required bidders’ products to support the many
responsibilities associated with the operation of a large and modern
forensic laboratory by providing a repository for laboratory data as well
as tools for accessing, processing, analyzing (providing performance
metrics), and reporting the data. The RFP included 200 requirements
in 7 categories: (1) functional requirements, (2) external interface
requirements, (3) performance requirements, (4) design constraints,
(5) security and legality, (6) data base requirements, and (7) system
support and maintenance. Examples of the RFP requirements include
the identification and tracking of evidence, a web-browser interface,
and full-time user support.

      The FBI received and began evaluating six responses to the RFP
in early 2003. The Laboratory Division formed cost and technical
committees to evaluate the proposals. The cost committee was
comprised of personnel from the FBI’s Finance Division, and the
technical committee was comprised of personnel from the Laboratory
Division. The evaluations included an examination of each bidder’s
costs based on the requirements listed in the RFP. The FBI’s technical
review committee completed its evaluation of the bidders’ responses to
the RFP in June 2003.

      The FBI rated JusticeTrax, Inc., of Mesa, Arizona, as the lowest
cost, qualified bidder for its Laboratory Information Management
System (LIMS). 10 The technical committee rated JusticeTrax as
follows.

                          AREA               RATING
              Technical – Functional
                                           Acceptable
              Requirements
              Technical – Performance Plan Exceptional
              Past Performance             Exceptional
              Management                   Exceptional

      The FBI’s evaluation of the JusticeTrax proposal cited some
strengths but also areas of risk. Examples of JusticeTrax’s strengths
were: (1) It had a mature COTS system used by organizations with
missions similar to the FBI’s, including the Royal Canadian Mounted
Police Forensic Services Laboratory; and (2) LIMS was already
integrated with bar-code scanner and printers that could be provided

      10
        The JusticeTrax product is called the Laboratory Information Management
System–plus. We refer to the system as LIMS throughout this report.

                                      - 4-
for testing within 15 days and for implementation within 45. Although
the committee assessed LIMS as meeting the laboratory’s mission-
critical needs, the evaluation also identified two key risks in addition to
an ambitious delivery schedule: (1) because JusticeTrax is based in
Arizona, it needed to hire employees to work on the project in Virginia,
train them, and have them obtain security clearances within the
timeframe proposed; and (2) the JusticeTrax product required
significant customization of its software to meet the FBI’s
requirements such as security standards, migrating data from the ECS,
and providing the capability to issue alerts and notices. Another
concern was that JusticeTrax did not have the capability to provide
web-browser connectivity immediately, but instead proposed
converting its LIMS product to a web-based application in early 2004.

JusticeTrax LIMS Product Selected

       Based on its evaluation of the six proposals received in response
to its RFP, the FBI awarded JusticeTrax a $4.3 million contract in
September 2003 to customize its LIMS product for the FBI’s
laboratory. 11 The award included a base year of $1.6 million and 4
additional 1-year option contracts. The base year was September
2003 to September 2004. Rather than developing a separate contract
document that included all of the RFP requirements for the information
system, the FBI adopted JusticeTrax’s response to the RFP as the
contract by attaching a signature page to the proposal. This proposal
covered all the FBI’s LIMS requirements, which included weak and
generally worded security requirements. According to JusticeTrax’s
proposed project plan, the basic LIMS installation, training, and
deployment were to be completed in December 2003, or 90 days after
the contract award. The full LIMS implementation — including
customization, enhancements, and testing — was to be completed in
February 2004, or 5 months after the contract award. The additional
option year contracts were to provide future enhancements such as
software updates and maintenance of the LIMS product.




       11
           The JusticeTrax website, www.justicetrax.com, states that it has
experience in software development, customization, integration, testing, and
training. Additional services include data migration, custom report development,
training, and enhanced network support.

                                       - 5-
Prior Reports

       The Office of the Inspector General (OIG) and the Government
Accountability Office (GAO) each issued reports in 2002 recommending
that the FBI establish an Information Technology Investment
Management (ITIM) process to guide the development of its IT
investments and avoid investing in IT that does not support its mission
(see Appendix 3 for a listing of the reports related to the FBI’s IT
management.) 12 In response to these recommendations, the FBI
established a Life Cycle Management Directive (LCMD) in 2004, the
year after the FBI awarded the LIMS contract. The LCMD established
policies and guidance applicable to all FBI IT programs and projects
covering all elements of an IT system’s life cycle including planning,
acquisition, development, testing, and operations and maintenance.
Using the LCMD in the development of IT projects should enhance the
FBI’s ability to manage IT programs and projects, leverage technology,
build institutional knowledge, and ensure development is based on
industry and government best practices. The LCMD also included
certification and accreditation testing to ensure adequacy of IT
systems security. (The LCMD is further explained in Appendix 4.) In
addition to an ITIM process, the FBI continues to work on an
Enterprise Architecture to further ensure that investments are made in
an enterprise-wide decision. 13

      In May 2004, the OIG issued a report entitled The FBI DNA
Laboratory: A Review of Protocol and Practice Vulnerabilities. This
report discussed certain vulnerabilities in the FBI’s DNA laboratory.
One of the vulnerabilities led to a recommendation for an information
management system. Given the benefits of evidence tracking and
chain-of-custody documentation, the report noted that successful
implementation of such a system should be one of the laboratory’s top
administrative priorities.


       12
           The Department of Justice, Office of the Inspector General. The Federal
Bureau of Investigation’s Management of Information Technology Investments, Audit
Report Number 03-09, December 2002. The Government Accountability Office.
Campaign Finance Task Force Problems and Disagreements Initially Hampered
Justice’s Investigation, Report Number GAO/GGD-00-101BR, May 2002.
       13
           According to the GAO, an Enterprise Architecture is a set of descriptive
models such as diagrams and tables that define, in business and technology terms,
how an organization operates today, how it intends to operate in the future, and how
it intends to invest in technology to transition from today’s operational environment
to tomorrow’s.

                                        - 6-
               FINDINGS AND RECOMMENDATIONS


Inadequate Management of the Laboratory Information
Management System Project

     The FBI wasted $1,175,015 in attempting to implement
     the long-delayed LIMS project, which failed primarily due
     to uncorrectable security flaws. The LIMS project suffered
     from a series of delays, in part due to the extent of
     customization required to adapt JusticeTrax’s commercially
     available system to meet the FBI’s requirements. The
     LIMS project was unsuccessful because the FBI did not
     apply rigorous IT investment management processes,
     including strong and consistent IT project management,
     and inadequately considered the risks inherent in
     JusticeTrax’s ability to modify its LIMS software to meet
     the FBI’s particular needs. The FBI terminated the LIMS
     contract in January 2006 after 28 months. The basic
     system had intended to be delivered within 90 days of the
     September 2003 contract award.

Project Delays

      JusticeTrax proposed installing its LIMS software within 90 days
of the September 2003 contract award. However, a series of delays
began soon after the contract was awarded. One of the reasons for
the delays was that JusticeTrax’s president and chief shareholder was
a foreign national, which created security concerns requiring an
evaluation. Also, the firm lacked IT personnel in Quantico, Virginia
with security clearances to work on the project. Moreover, extensive
customization of JusticeTrax’s off-the-shelf system was needed to
meet the FBI’s requirements, but the LIMS software used an outdated
programming language that made customization difficult and slow.

      In January 2004, 4 months after the LIMS contract was awarded,
the FBI’s contracting officer, who is responsible for the overall
implementation of the contract, and the contracting officer’s technical
representative (COTR), who directly monitors the contract, were both
replaced due to personnel changes in the FBI’s Laboratory Division.
Both of the individuals replaced were involved in the initial
development of the information management project, including the


                                 - 7-
system requirements. Shortly afterward, a series of problems arose in
the implementation of the LIMS project.

       In March 2004, the president of JusticeTrax informed the new
COTR that he was a foreign national. While the former COTR was
aware of the president’s status prior to awarding the contract, he did
not view the lack of U.S. citizenship as a problem because he believed
the president was not going to be involved in the coding of the system.
Additionally, the contract did not specify work to be performed at the
classified level, even though the LIMS database was to include
classified and other sensitive information such as grand jury data. The
newly appointed COTR stated that she believed a risk existed with the
project because the LIMS would include sensitive information and the
JusticeTrax president might be directly involved in the LIMS
development. Additionally, the RFP included a Department of Justice
mandated provision prohibiting non-U.S. citizens from having access
to or being involved in the development of any Department IT system.
After evaluating the security risk, the Laboratory Division, the Security
Division, the Financial Division, and the Office of General Counsel
agreed that the JusticeTrax president being a foreign national was a
low risk; therefore the FBI decided to continue the contract. In our
view, it was predictable that because JusticeTrax is a small
organization of about 20 employees, the president would need to be
involved in managing the project. The FBI’s security concerns led the
JusticeTrax president to sign an agreement in April 2004 not to be
involved in the development, operation, management, or maintenance
of LIMS.

       The COTR followed up on her concerns, believing that the
sensitivity of the LIMS and the data it would hold required additional
assurances. As a result, the FBI performed a Community Acquisition
Risk Center (CARC) threat analysis. In August 2004, the FBI’s
Counterintelligence Division issued a CARC Company Threat Analysis
memorandum stating JusticeTrax was eligible to perform the contract.
Finally, in September 2004, 1 year after the contract was signed, the
JusticeTrax president became a U.S. citizen, and the recusal
agreement was rescinded.

      The foreign ownership issue should have been addressed by the
FBI during the pre-acquisition phase of the project. Because of the
secure nature of the LIMS system, the FBI should have taken steps to
ensure that all of the potential contractors were familiar with the
security requirements of the system and of the Department of Justice’s

                                  - 8-
mandate prohibiting non-U.S. citizens from being involved in the
development of a Department system. As a result of not taking
measures to ensure that the potential contractors for the project met
these requirements, the COTR had to take actions that delayed the
project’s implementation after the contract had been awarded.

       Another obstacle to the implementation of the LIMS was a lack
of personnel with security clearances at JusticeTrax to work on the
project in Quantico, Virginia. JusticeTrax did not provide the FBI with
security clearance information on its personnel until almost 2 months
after the contract award, and the security clearance process took an
additional 3 to 8 months. This meant that JusticeTrax could not begin
implementing LIMS until early 2004, after the basic product was to
have been deployed in accordance with JusticeTrax’s schedule.

        A third problem required the basic LIMS product to have
extensive customization to meet the FBI’s requirements, resulting in
further delays. According to an FBI official in May 2005, the COTS
product was 95-percent customized. In essence, the FBI’s LIMS would
no longer be a COTS product but an FBI-unique system. This process
was slow because the LIMS software relies on a dated code format,
Visual FoxPro, requiring more intensive coding than more modern
formats. 14 Visual FoxPro is considered an outdated form of code, but
it is still compatible with today’s technology. While the FBI’s requests
for a customized system caused delays, the old code used in the LIMS
software exacerbated these delays.

FBI Attempts to Correct Project Delays

       The FBI became aware of the delays and deficiencies with LIMS
early in the project. While the LIMS software was functional, it had
security vulnerabilities and did not yet meet the FBI’s requirement for
a web-browser interface. Although the basic LIMS was to be
implemented in 90 days (December 2003), the delays in the project
resulted in two no-cost extensions, with the base year slipping
15 months. In 2004, it became increasingly apparent to the FBI that
full implementation of LIMS appeared unlikely, even though
JusticeTrax had already trained laboratory personnel in operating the
system.


      14
        Visual FoxPro, developed by Fox Software beginning in 1984, is a
programming language used to develop database applications.


                                      - 9-
       On December 6, 2004, the FBI issued a Show Cause Notice to
JusticeTrax stating that JusticeTrax failed to meet the deadline for
implementation. 15 The notice also provided JusticeTrax with a list of
failed tasks including: (1) ensuring system security, (2) migrating
legacy ECS data to LIMS, and (3) passing acceptance testing of the
system. The Show Cause Notice stated that although the LIMS was
delivered, the system had to pass security testing as well as
acceptance testing. On December 9, 2004, JusticeTrax responded that
the delays the FBI detailed in the Show Cause Notice were
requirements not immediately apparent in the contract. JusticeTrax
also stated that neither it nor FBI staff had any detailed information
regarding the process and what was to be tested. We also noted that
the FBI did not provide JusticeTrax with specifics of how to meet the
certification and accreditation (C&A) requirements.

      On February 11, 2005, the FBI issued a letter to JusticeTrax
stating the initial security review of LIMS during the security testing
process identified risks that had to be corrected before further testing
could proceed.

LCMD Review Board

      The FBI awarded the LIMS contract 14 months prior to the
implementation of its LCMD, a critical initiative that provided the FBI
with sound and structured IT investment management processes to
help ensure successful IT projects. Once the LCMD was implemented,
the FBI required all ongoing IT projects to follow the LCMD processes
for the projects’ current stages of development. The FBI’s Chief
Information Officer (CIO) stated the FBI’s IT investment review boards
began reviewing ongoing projects that predated the LCMD. The review
boards examined high-dollar, high-risk projects first, concentrating on
the top 30 to 40 projects. LIMS was not reviewed for about 6 months
because the project did not meet the criteria for priority review.

       On May 20, 2005, the FBI’s Information Management Project
Review Board (IMPRB), one of the review boards established in the
LCMD, reviewed the LIMS project. During the review, laboratory
officials described the history of LIMS, including the laboratory’s need
for an information management system and the delays experienced in

      15
          A contracting agency sends a Show Cause Notice to the contractor stating
the delinquencies and timeframe to resolve the problems.

                                      - 10-
trying to implement the LIMS project. At the time of the review,
JusticeTrax had already trained the FBI’s would-be LIMS users.
Although LIMS was functional, it had not yet been brought online
because it did not meet all of the FBI’s security requirements. The
review board also learned that although JusticeTrax’s basic LIMS was a
COTS system, the software had undergone extensive modification so
that about 95 percent of the FBI’s version of LIMS was based on
custom code. A member of the IMPRB doubted the project would pass
the FBI’s security certification and accreditation testing. The FBI’s
Security Division provides C&A, authorizing the deployment and
operation of a system, only if it deems a system secure based on its
testing and evaluation. FBI officials agreed that if LIMS could not pass
C&A, then the project should be cancelled. The IMPRB expressed
additional concerns about project risks, including the fact that the
Visual FoxPro code used for JusticeTrax’s LIMS is old technology and
whether the small firm could adequately support the system into the
future. The IMPRB recommended that a Red Team be assembled to
review the LIMS project and consider alternative approaches. 16

       The FBI formed a LIMS Red Team in July 2005 with
representatives of the Laboratory Division, the Office of General
Counsel, the Office of the CIO, the Finance Division, and the ITOD.
The team held meetings from July through October 2005 and
presented its findings, conclusions, and recommendations to the FBI’s
CIO in October. From the beginning of its review, the Red Team
identified serious technical deficiencies with LIMS, which included:

      •    The requirement for a web-browser interface had not been
           satisfied;

      •    There were security vulnerabilities associated with
           administrative shares (auditable records);

      •    The transmission between client and server interface was
           inherently insecure; and

      •    The technical architecture was not suitable to ensure chain of
           custody requirements.



      16
          Red Teams review and advise on FBI IT projects that miss cost, schedule,
or performance thresholds.


                                      - 11-
      The Red Team recommended terminating the JusticeTrax LIMS
contract because the system could not pass C&A. The team also
suggested that BizFlow, a product the FBI is licensed to use, might be
a suitable alternative. 17 According to the Red Team, BizFlow has the
capability to integrate workflows with information management, create
and replicate forms, provide formatted and customizable reports, and
handle bar-coding equipment.

Certification and Accreditation

       As the IT review board predicted, C&A testing led to the
termination of the LIMS contract. As part of the LCMD, C&A is the
FBI’s management control for ensuring the adequacy of computer
systems’ security. The C&A testing and evaluation process is designed
to ensure the FBI’s systems are designed securely and remain secure
throughout their life cycle. If the Security Division’s testing and
evaluation determine that a new system is secure, the Security
Division provides accreditation and approves the system to enter into
operations within the FBI’s IT architecture.

      The LIMS RFP required security to be part of the system.
However, due to several high-profile espionage-related security
breaches within the FBI, the FBI strengthened C&A requirements after
the September 2003 award of the LIMS contract. The specifics were
not available to JusticeTrax until the FBI provided the results of the
FBI’s Security Division’s Certification Test Report to JusticeTrax in
August 2005. The report stated that LIMS failed testing in four key
areas: (1) password storage, (2) auditing capability, (3) control of
grand jury evidence, and (4) shared directory (information sharing
outside the laboratory).

      In September 2005, the Security Division began testing for a
second Certification Test Report after JusticeTrax provided patches to
the LIMS software based on the first report. The FBI performed tests
to ensure that the system was at an approved baseline security
configuration and that the system presented little or no risk to FBI
systems or data. However, the Security Division identified 14
vulnerabilities according to the ease of exploiting the system. The 14
findings ranged from “requires expert-level knowledge to exploit the
vulnerability to gain access to the system” to “does not require tools or
expert-knowledge to exploit and gain access to the system.” The

      17
           BizFlow is a workflow and information management system.

                                      - 12-
significance level, meaning impact if exploited, for all 14 vulnerabilities
was rated high. 18

Termination of the Project

      By October 2005, it became clear to the FBI that LIMS would not
meet the FBI’s security and other requirements. The FBI gave
JusticeTrax an opportunity to correct the system’s deficiencies, but
those efforts were unsuccessful. Eventually, after 28 months of effort,
the FBI terminated the LIMS contract.

       On October 4, 2005, the FBI issued a Cure Notice to Justice Trax
stating that the LIMS software application was not able to successfully
pass the FBI’s Security C&A Testing. 19 In the Cure Notice, the FBI
identified two outstanding concerns: (1) system security, and
(2) the lack of a fully functional web-browser interface. JusticeTrax
attempted to correct the security flaws, but the FBI’s Security Division
did not accept the corrections. JusticeTrax planned to provide the web
browser at a later date.

      Based on the Certification Test Report and its finding that LIMS
posed a very high security risk, the Security Division recommended on
October 17, 2005, that LIMS not be accredited. The C&A process
found that the system’s vulnerabilities could not be mitigated due to
the inherent design of the software. Therefore, the certifier
recommended against granting an approval to operate the system. 20

       At the end of October 2005, the FBI issued a Stop-work Order to
JusticeTrax. According to the Federal Acquisition Regulation,
situations may occur during contract performance that cause the
government to order a suspension of work, or a work stoppage. A
Stop-work Order may be issued in any negotiated fixed-price or cost-
reimbursement supply, research and development, or service contract

       18
            In the Certification Test Report, the Security Division explained the high
significance level as extensive damage due to loss, corruption, or compromise of
National Security Information; prolonged denial of service of data; endangerment of
life; loss of integrity mechanisms; or corruption of security policies and rules.
       19
           A Cure Notice notifies the contractor of specific problems requiring
corrective action and establishes a 10-day time period to provide corrections.
       20
           One security flaw was the inability of LIMS to meet the confidentiality and
integrity requirements for the protection of evidentiary or grand jury data.


                                         - 13-
due to advancement in the state-of-the-art, production or engineering
breakthroughs, or realignment of programs.

      In January 2006, the FBI issued a contract termination letter to
JusticeTrax. In March 2006, the FBI and JusticeTrax agreed to
terminate the contract. The FBI agreed to pay JusticeTrax an
additional $523,932, and the contractor waived any claims arising
from the contract.

CIO’s Observations

       The FBI’s CIO noted to the OIG that the LIMS contract was
awarded before the FBI’s IT investment management controls were
implemented through the LCMD. He stated that in his opinion, the
LIMS project demonstrates the success of the FBI’s LCMD because the
FBI terminated the project after the IMPRB review and the C&A
process showed that the LIMS system’s serious deficiencies could not
be corrected. The CIO noted that the LCMD process now requires
project managers to come before review boards so that the FBI’s
divisions no longer manage IT projects in isolation. The CIO stated
that the controls provided by the LCMD help to detect problems earlier
in a project’s life cycle.

JusticeTrax’s Observations

       JusticeTrax officials stated that in their opinion, the failure of the
LIMS project was due to the FBI’s lack of communication, information
sharing, and resources. They also stated that the FBI did not provide
a “champion,” that is, an FBI official who would work to ensure the
success of the project. Finally, JusticeTrax officials said that the FBI
insisted on requirements, especially regarding system security, that
were not specified in the contract. Although the contract included a
provision for security, JusticeTrax officials stated that details for the
C&A requirements were never provided. After reviewing the
requirements in the contract, we agree that the security requirements
were too general to provide enough detail on how to meet the
requirements.

Laboratory Division’s New Review Process

      In addition to the FBI’s LCMD, the Laboratory Division had
established in October 2005 a division-wide Major Acquisition Review
Committee (MARC) to strengthen the oversight of the Laboratory

                                    - 14-
Division’s acquisitions, including IT investments. The MARC will assist
Laboratory managers to ensure that Laboratory projects adhere to all
Department of Justice and FBI requirements for sound project and
financial management. The MARC mirrors the LCMD, but covers all
projects rather than only the IT projects covered by the LCMD. The
purpose of the MARC is to:

      •   review and approve Laboratory Division investments that
          meet the following thresholds: acquisition requests totaling
          $250,000 or more, IT requests totaling $50,000 or more, and
          all projects totaling $100,000 or more;

      •   ensure that the requests are aligned with the Laboratory
          Division Strategic and Program Plans;

      •   ensure that the requests have been included in the
          Laboratory Division’s Fiscal Year Spend Plan;

      •   ensure that acquisition rules, regulations, and requirements
          have been appropriately adhered to;

      •   ensure that project management standards and practices are
          being implemented and appropriately reviewed;

      •   ensure that all IT requests are properly prepared and are
          aligned with the FBl's Enterprise Architecture, and adhere to
          the Office of the CIO’s requirements; and

      •   ensure resolution of concerns affecting the acquisition project
          (e.g., mission alignment, requirements, technology, security,
          information sharing, funding, and risks).

Project Costs

     The base year of the LIMS contract was September 2003 to
September 2004, with a $1.6 million budget. The base year could be
extended by four 1-year contract options, bringing the total contract
budget to $4.3 million.

      Prior to the Red Team’s decision to recommend termination, the
FBI paid JusticeTrax a total of $856,219 in personnel, training, and
equipment costs. This included $205,136 in hardware that the
Laboratory Division purchased from JusticeTrax that can be used by

                                  - 15-
the FBI laboratory separate from LIMS. 21 During our audit, we
reviewed and verified that all expenses were supported by invoices.

      When the FBI terminated the LIMS contract, the FBI and
JusticeTrax agreed to a settlement of $523,932. Therefore, the FBI
spent a total of $1,380,151 on the LIMS contract as shown in the table
below.

                   FBI Payments to JusticeTrax
       Personnel and training                                    $651,083
       Equipment                                                 $205,136
       Termination agreement                                     $523,932
       Total                                                   $1,380,151
      Source: FBI data

The FBI wasted $1,175,015 on the LIMS project: $1,380,151 paid to
JusticeTrax less the reusable equipment totaling $205,136. 22

LIMS Alternatives

      The FBI Laboratory Division’s need for an information
management system remains. To fulfill the need, the FBI is
considering other COTS systems. For example, the Red Team that
evaluated JusticeTrax’s LIMS recommended Bizflow software, which is
used for workflow and information management. The FBI purchased
Bizflow to use within the FBI in general, but the software has not yet
gone through C&A testing or other LCMD processes. Alternative
solutions might also be found in other Department of Justice
components’ or other federal agencies’ laboratory information
systems. For example, the FBI has obtained information from the
Drug Enforcement Administration on its ongoing project to acquire a
system for managing evidence. The Bureau of Alcohol, Tobacco,
Firearms and Explosives is also expected to deploy a new laboratory
information system in the spring of 2006 that has been under
development for over 5 years.

      21
          Of the $205,136 of equipment purchased, $144,070 was purchased with
reprogrammed, non-project laboratory funds. The laboratory purchased 50 printers
and 50 scanners for $61,066. Then, in expectation of implementing the project, the
laboratory purchased additional bar-coding equipment with the $144,070 in
reprogrammed funds.
      22
        The equipment was purchased from JusticeTrax as part of the contract
agreement.

                                      - 16-
Conclusion

       We concluded that the FBI’s inability to implement the LIMS
system and its loss of nearly $1.2 million in the attempt was a shared
responsibility between the FBI and JusticeTrax. The project began
before the FBI had established its ITIM processes. When those
processes were implemented, they helped identify problems with the
project that ultimately led to terminating the contract before losing
additional money. Still, the FBI did not do its homework before
awarding the contract, including adequately identifying and assessing
the risks in selecting JusticeTrax, and in vastly modifying the
company’s COTS LIMS product. The FBI had a responsibility to not
only ensure that JusticeTrax understood the system requirements, but
that JusticeTrax also had the technical capacity to fulfill the
requirements.

      In addition, the FBI did not adequately document for JusticeTrax
the security requirements for certification and accreditation of the
LIMS software. To the extent security requirements evolved, those
changes should have been made clear through contract modifications,
if necessary. The FBI also should have identified the citizenship
problem of the JusticeTrax president, foreseen the security clearance
requirements for JusticeTrax personnel, and assessed the problems
and delays inherent in requiring major modifications to tailor a COTS
system — especially one based on an outdated code. A firmly
managed schedule, and cost, technical, and performance benchmarks,
would have raised danger signs early in the project and perhaps led to
resolution much more rapidly. Among the FBI’s weaknesses were:
(1) the lack of established IT management processes to ensure a
sound project and identify problems early, and (2) not designating a
project manager to oversee the project. Also, two key contracting
personnel, both of whom were involved in the development of the
LIMS requirements, left the project only 4 months after the contract
was awarded. This lack of continuity and institutional knowledge likely
contributed to the poor outcome of the LIMS project.

       Because JusticeTrax did not provide personnel with security
clearances to work on the system, and its president was not a U.S.
citizen, JusticeTrax contributed to the early delays in starting the
project. It was incumbent upon JusticeTrax to meet all FBI
requirements for the system, including mandatory security protections.
However, JusticeTrax has a legitimate point that some details of the
requirements were unknown at the start of the project.

                                 - 17-
      JusticeTrax’s use of outdated code made modifications difficult
and time-consuming, and JusticeTrax did not properly assess its ability
to perform the work required to adapt its system to operate in the FBI
environment. Also, while JusticeTrax intended to make its system
web-based, the delays in the project prevented that before the
contract was terminated.

      Because JusticeTrax was unable to mitigate unacceptable
security vulnerabilities, the FBI had no choice but to terminate the
LIMS contract. As a result, the FBI’s Laboratory Division continues to
lack a modern system to track evidence through the laboratory and
otherwise manage its laboratory operations because it is difficult to
determine the location and status of evidence at any given point in
time or to determine how long the process is taking. We believe the
FBI should consider adopting a COTS workflow system for its
laboratory information system or an acceptably secure information
management system used by another federal law enforcement entity.

      We agree with FBI officials who stated that the FBI’s LCMD
should prevent problems such as those encountered with LIMS if the
processes are applied as intended with detailed requirements for the
contracting process, management oversight boards, and other controls
to ensure troubled projects are identified sooner and can be remedied.




                                 - 18-
Recommendations

     We recommend that the FBI:

1.   Consider whether a COTS workflow system or laboratory
     information management systems in use or under development
     within the federal government will meet the needs of the FBI
     laboratory.

2.   Ensure that any project to provide a laboratory information
     management system not only follows the FBI’s LCMD but is
     overseen by an experienced IT project manager.

3.   Establish cost controls to ensure that training or other expenses
     are not incurred prematurely in the development of a successor
     to the LIMS project.




                                - 19-
 STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      This audit assessed the status of the FBI’s Laboratory
Information Management System (LIMS) project. In connection with
the audit, we reviewed management processes and records to obtain
reasonable assurance that the FBI’s compliance with laws and
regulations that, if not complied with, in our judgment, could have a
material effect on FBI operations. Compliance with laws and
regulations applicable to the FBI’s LIMS project is the responsibility of
the FBI’s management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of the
Federal Acquisition Regulation.

      Our audit identified no areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to transactions that were not tested, nothing came to our
attention that caused us to believe that FBI management was not in
compliance with the laws and regulations cited above.




                                  - 20-
            STATEMENT ON INTERNAL CONTROLS

       In planning and performing our audit of the FBI’s Laboratory
Information Management System (LIMS) project, we considered the
FBI’s internal controls for the purpose of determining our audit
procedures. This evaluation was not made for the purpose of
providing assurance on the internal control structure as a whole.
However, we noted certain matters that we consider to be reportable
conditions under the Government Auditing Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
management control structure that, in our judgment, could adversely
affect the FBI’s ability to manage its LIMS project. During our audit,
we identified the following management control concerns.

      •   The FBI’s Laboratory Division remains without an information
          management system to aid laboratory mangers in overseeing
          the operations of the laboratory.

      •   The FBI initially lacked an Information Technology Investment
          Management process, but has corrected that deficiency.

       Because we are not expressing an opinion on the FBI’s internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its IT investments. This
restriction is not intended to limit the distribution of this report, which
is a matter of public record.




                                   - 21-
                                                          APPENDIX 1

             OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The primary objectives of the audit were to: (1) determine the
status of the LIMS project; (2) assess the information technology
investment management process used for LIMS; (3) assess project
management and other management controls; and
(4) determine project costs.

Scope and Methodology

      The audit was performed in accordance with the Government
Auditing Standards and included tests and procedures necessary to
accomplish the audit objectives. We conducted work at the FBI
Laboratory Division in Quantico, Virginia; FBI Headquarters in
Washington, D.C.; and JusticeTrax corporate headquarters in Mesa,
Arizona.

       We interviewed officials from the FBI and JusticeTrax. The FBI
officials interviewed were from the Laboratory Division, Office of the
Chief Information Officer, Office of General Counsel, Finance Division,
and Criminal Justice Information Services. Additionally, we reviewed
FBI documents on the LIMS project and budget, and prior GAO and
OIG reports.

      To determine the current status of the LIMS project, the
Information Technology Investment Management processes used, and
the extent of project management and other management controls, we
interviewed FBI personnel and reviewed correspondence between the
FBI and JusticeTrax. To determine LIMS project costs, we examined
the contract budget, cost spreadsheets, and product invoices.




                                 - 22-
                                              APPENDIX 2

                   ACRONYMS

ATF     Bureau of Alcohol, Tobacco, Firearms, and Explosives
CARC    Community Acquisition Risk Center
C&A     Certification and Accreditation
CIO     Chief Information Officer
COTS    Commercial Off-the-Shelf
DEA     Drug Enforcement Administration
ECS     Evidence Control System
FBI     Federal Bureau of Investigation
GAO     Government Accountability Office
IMPRB   Investment Management Project Review Board
IT      Information Technology
ITIM    Information Technology Investment Management
ITOD    Information Technology Operations Division
LCMD    Life Cycle Management Directive
LIMS    Laboratory Information Management System
JAD     Joint Application Development
MARC    Major Acquisition Review Committee
OIG     Office of the Inspector General
RFP     Request for Proposal




                      - 23-
                                                             APPENDIX 3

             PRIOR REPORTS ON THE FBI’S INFORMATION
                        TECHNOLOGY

      Below is a listing of relevant reports concerning the FBI’s
information technology (IT) systems. These include reports issued by
the Department of Justice Office of the Inspector General (OIG) and
the Government Accountability Office (GAO).

OIG Reports on the FBI’s IT

      OIG reports issued over the past 15 years have highlighted
issues concerning the FBI’s utilization of IT, including its investigative
systems. In 1990, the OIG issued The FBI’s Automatic Data
Processing General Controls, which found that:

      •   The FBI’s phased implementation of its 10-year Long Range
          Automation Strategy, scheduled for completion in 1990, was
          severely behind schedule and may not be accomplished;

      •   The FBI’s Information Resources Management program was
          fragmented and ineffective, and the FBI’s Information
          Resources Management official did not have effective
          organization-wide authority;

      •   The FBI had not developed and implemented a data
          architecture; and

      •   The FBI’s major mainframe investigative systems were labor
          intensive, complex, untimely, and non-user friendly, and few
          agents used them.

       In December 2002, the OIG issued The FBI’s Management of
Information Technology Investment. The report made 30
recommendations and focused on the need to adopt sound investment
management practices as recommended by the GAO. The report also
stated that the FBI did not fully implement the management processes
associated with successful IT investments. Specifically, the FBI had
failed to implement the following critical processes:




                                   - 24-
      •   defining and developing IT investment boards,

      •   following a disciplined process of tracking and overseeing
          each project’s cost and schedule milestones over time,

      •   identifying existing IT systems and projects,

      •   identifying the business needs for each IT project, and

      •   using defined processes to select new IT project proposals.

      In September 2003, the OIG issued The Federal Bureau of
Investigation’s Implementation of Information Technology
Recommendation, which outlined the FBI’s continued need to address
the recommendations made by oversight organizations concerning its
IT strategies. The report stated that although OIG audits found
repeated deficiencies in the FBI’s IT control environment and lack of
compliance with information security requirements, the FBI leadership
appeared to be committed to enhancing controls to ensure that
recommendations were implemented in a consistent and timely
manner. Additionally, the report noted that the FBI established a
system to facilitate the tracking and implementation of OIG
recommendations.

      In May 2004, the OIG issued The FBI DNA Laboratory: A Review
of Protocol and Practice Vulnerabilities. In this report the OIG findings
focused on two general types of vulnerabilities that became apparent
during the review: (1) protocol vulnerabilities and practice, and
(2) operational vulnerabilities. As a result of the vulnerabilities, one of
the 35 OIG recommendations was that the FBI Laboratory Division
implement an information management system. The OIG noted that
laboratory management had begun to lay the groundwork for the
implementation of a system in 2002. Given the benefits that such a
system would bring to evidence tracking and chain-of-custody
documentation, the OIG recommended the successful implementation
of an information management system as one of the laboratory’s top
administrative priorities.

      In February 2006, the OIG issued The FBI’s Pre-Acquisition
Planning for and Controls over the Sentinel Case Management System.
Sentinel is part of the FBI’s IT modernization project to replace the
FBI’s antiquated case management system. The report noted the FBI


                                   - 25-
has taken steps to address its past mistakes in IT investments and to
adequately plan for the development of Sentinel.

External Reports on the FBI’s IT

       The GAO has issued several reports and related testimony that
highlight deficiencies with the FBI’s IT environment. In a review of the
Department’s Campaign Finance Task Force, the GAO reported in May
2000 that the FBI lacked an adequate information system that could
manage and interrelate the evidence that had been gathered in
relation to the Task Force’s investigations. Also, as part of a
government-wide assessment of federal agencies, the GAO reported in
February 2002 that the FBI needed to fully establish the management
foundation that was necessary to successfully develop, implement, and
maintain an Enterprise Architecture.

       In September 2003, the GAO issued Information Technology:
FBI Needs an Enterprise Architecture to Guide Its Modernization
Activities. This report reiterated the GAO’s finding made in the May
2002 report on the Department’s Campaign Finance Task Force that
the FBI did not have an Enterprise Architecture, although it had begun
efforts to develop one. Additionally, the GAO found that the FBI still
did not have the processes in place to effectively develop, maintain,
and implement an Enterprise Architecture.

      In September 2004, the GAO issued Information Technology:
Foundational Steps Being Taken to Make Needed FBI Systems
Modernization Management Improvements. This report stated that
although improvements were underway and more were planned, the
FBI did not have an integrated plan for modernizing its IT systems.
Each of the FBI’s divisions and other organizational units that manage
IT projects performed integrated planning for its respective IT
projects. However, the plans did not provide a common, authoritative,
and integrated view of how IT investments could help optimize mission
performance, and they did not consistently contain the elements
expected to be found in effective systems modernization plans. The
GAO recommended that the FBI limit its near-term investments in IT
systems until it developed an integrated systems and modernization
plan and effective policies and procedures for systems acquisition and
investment management. Additionally, the GAO recommended that
the FBI’s Chief Information Officer (CIO) be provided with the
responsibility and authority to effectively manage information
technology FBI-wide.

                                 - 26-
      In September 2005, the GAO issued Information Technology:
FBI Is Taking Steps to Develop an Enterprise Architecture, but Much
Remains to be Accomplished. This report stated that the FBI managed
its Enterprise Architecture program in accordance with many best
practices, but other such practices had yet to be adopted. These best
practices, which are described in GAO’s Enterprise Architecture
management maturity framework, are those necessary for an
organization to have an effective architecture program. In addition,
the FBI relied heavily on contractor support to develop its Enterprise
Architecture. However, it did not employ effective contract
management controls in doing so.

      In September 2005, the GAO issued testimony entitled,
Information Technology: FBI is Building Management Capabilities
Essential to Successful System Deployments, but Challenges Remain.
This testimony stated that the FBI had made important progress in
establishing IT management controls and capabilities that GAO’s
research and experience show are key to exploiting technology to
enable transformation. These included centralizing IT responsibility
and authority under the CIO and establishing and beginning to
implement management capabilities in the areas of enterprise
architecture, IT investment management, systems development and
acquisition life cycle management, and IT human capital. In addition:

     •   The FBI had developed an initial version of its enterprise
         architecture and is managing its architecture activities in
         accordance with many key practices, but it had yet to adopt
         others (such as ensuring that the program office has staff
         with appropriate architecture expertise).

     •   The FBI was in the process of defining and implementing
         investment management policies and procedures. For
         example, it was performing assessments of existing systems
         to determine if any could be better used, replaced,
         outsourced, or retired, but these assessments had yet to be
         completed.

     •   The FBI had issued an agency-wide standard life cycle
         management directive, but it had yet to fully implement this
         directive on all projects. Also, certain key practices, such as
         acquisition management, required further development.



                                  - 27-
•   The FBI had taken various steps to bolster its IT workforce,
    but it had yet to create an integrated plan based on a
    comprehensive analysis of existing and needed knowledge,
    skills, and abilities. According to the CIO, the FBI intended to
    hire a contractor develop an implementation plan. The CIO
    also intended to establish a management structure to carry
    out the plan.

•   The challenge for the FBI is to build on these foundational
    capabilities and implement them effectively on the program
    and project investments it has underway and planned.




                             - 28-
                                                          APPENDIX 4

        THE FBI’S LIFE CYCLE MANAGEMENT DIRECTIVE

       According to the FBI’s Chief Information Officer (CIO), since the
inception of the Life Cycle Management Directive (LCMD), all FBI
information technology (IT) programs and projects have been
reviewed and managed according to the processes described in the
LCMD. New IT programs and projects have been managed according
to this IT Systems Life Cycle from inception and will be managed
through retirement or replacement, while existing IT programs and
projects are reviewed and placed within an appropriate IT Systems Life
Cycle phase according to their maturity and other factors.

Systems Life Cycle Phases

      The LCMD has established nine phases that occur during the
development, implementation, and retirement of IT projects. During
these phases, specific requirements must be met for the project to
obtain the necessary FBI management approvals to proceed to the
next phase. The approvals occur through seven control gates, where
management boards meet to discuss and approve or disapprove a
project’s progression to future phases of development,
implementation, or retirement. The nine phases of development,
implementation, and retirement are as follows:

      Concept Exploration — Identifies the mission need, develops and
      evaluates alternate solutions, and develops the business plan.

      Requirements Development — Defines the operational, technical
      and test requirements, and initiates project planning.

      Acquisition Planning — Allocates the requirements among the
      development segments, researches and applies lessons learned
      from previous projects, identifies potential product and service
      providers, and secures funding.

      Source Selection — Solicits and evaluates proposals and selects
      the product and service providers.

      Design — Creates detailed designs for system components,
      products, and interfaces and initiates test planning.




                                 - 29-
     Development and Test — Produces and tests all system
     components, assembles and tests all products, and plans for
     system testing.

     Implementation and Integration — Executes functional,
     interface, system, and integration testing, provides user training,
     and accepts and transitions the product to operations.

     Operations and Maintenance — Maintains and supports the
     product, and manages and implements necessary modifications.

     Disposal — Shuts down the system operations and arranges for
     the orderly disposition of system assets.

Control Gate Reviews

       The seven control gate reviews provide management control and
direction, decision-making, coordination, confirmation of successful
performance of activities, and determination of a system’s readiness to
proceed to the next life cycle phase. Decisions made at each control
gate review dictate the next step for the IT program or project and
may include: allowing an IT program or project to proceed to the next
segment or phase, directing rework before proceeding to the next
segment or phase, or terminating the IT program or project. The FBI’s
Investment Project Review Board (IMPRB) — comprised of 12
representatives from each FBI division at the Assistant Director level
and 4 representatives from the Office of the Chief Information Office,
including the CIO — is responsible for approving an IT project’s
passing through each control gate. The seven control gate reviews
that represent the approval of an IT project are as follows:

     Gate 1 — System Concept Review approves the recommended
     system concept of operations.

     Gate 2 — Acquisition Plan Review approves the Systems
     Specification and Interface Control documents and the approach
     and resources required to acquire the system as defined in the
     Acquisition Plan.

     Gate 3 — Final Design Review approves the build-to and code-to
     documentation and associated draft verification procedures,
     ensures that the design presented can be produced and that
     when built is expected to meet its design-to specification at
     verification.

                                 - 30-
      Gate 4 — Deployment Readiness Review approves the readiness
      of the system for deployment in the operational environment.

      Gate 5 — System Test Readiness Review verifies readiness to
      perform official system-wide data gathering verification testing
      for either qualification or acceptance.

      Gate 6 — Operational Acceptance Review approves overall
      system and product validation by obtaining customer acceptance
      and determining whether the Operations & Maintenance
      organization agrees to, and has the ability to, support
      continuous operations of the system.

      Gate 7 — Disposal Review authorizes termination of the
      Operations and Maintenance Phase and disposes of system
      resources.

      At each control gate, executive-level reviews determine system
readiness to proceed to the next phase of the IT systems life cycle.
Evidence of readiness is presented and discussed at each control gate
review in the form of deliverables, checklists, and documented
decisions. Regardless of the development model used for a particular
program or project, all control gate reviews should be performed
unless an agreement is made to skip or combine reviews. Depending
upon the development model employed, programs or projects may
pass through the control gates more than once.

      The control gate reviews also provide executive-level controls to
ensure that IT projects are adequately supported and reviewed before
a project receives additional funding. Five executive-level review
boards serve as the decision authority for the control gate reviews:

      •   Investment Management Project Review Board (IMPRB) leads
          the System Concept Review and the Acquisition Plan Review
          and ensures all IT acquisitions are aligned and comply with
          FBI policies, strategic plans, and investment management
          requirements.

      •   Technical Review Board leads the Final Design Review and
          ensures IT systems comply with technical requirements and
          meet FBI needs.

      •   Change Management Board leads the Deployment Readiness
          Review, System Test Readiness Review, Operational
          Acceptance Review, and the Disposal Review, and controls
                                 - 31-
          and manages developmental and operational efforts that
          change the FBI's operational IT environment.

      •   Enterprise Architecture Board ensures IT systems comply with
          Enterprise Architecture requirements.

      •   IT Policy Review Board establishes, coordinates, maintains
          and oversees implementation of IT policies.

LCMD Project-Level Reviews

      Project-level reviews help determine a project’s readiness to
proceed to the next phase of the project life cycle. Each project-level
review provides information to the executive-level control gates as
data is developed and milestones are completed. They include the
following:

      •   Mission Needs Review is a technical progress review that
          approves the set of mission goals that will be satisfied
          throughout the project.

      •   System Specification Review is a technical progress review to
          approve the System Specification and External Interface
          Control Documents. The review is the decision point to
          proceed with the development of an Acquisition Plan, the
          allocation of system requirements to segment specifications,
          and the development of Project Plans that will execute the
          acquisition.




                                  - 32-
                                 APPENDIX 5

THE FBI’s RESPONSE TO THE DRAFT REPORT




              - 33-
- 34-
- 35-
- 36-
- 37-
- 38-
- 39-
                                                        APPENDIX 6

OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
         OF ACTIONS NECESSARY TO CLOSE REPORT

       The OIG provided a draft of this audit report to the FBI on
April 28, 2006, for its review and comment. The FBI provided a
written response, dated May 31, 2006, which we included as
Appendix 5 of this final report. The FBI concurred with the three
recommendations in the audit report and also provided comments
regarding three general issues in the report. Our analysis of the FBI’s
response follows.

FBI’s General Comments

      1. In its response, the FBI states that the purpose of LIMS was
to enhance the processes and procedures currently in place in the
laboratory by improving efficiencies and automation. Although we
agree with this statement, it does not reflect the full impact that the
implementation of the LIMS project would have had on the laboratory.
As noted in the report, laboratory officials stated that the paper-based
system currently being used by the laboratory is very limited in what
information it can provide to enhance the management of evidence as
it passes through the laboratory. LIMS would have allowed the FBI to
electronically trace evidence as it passes through the lab and provide
workflow data needed to better manage the laboratory.

       The FBI’s response also states that our report implies the
laboratory’s operations are not effective or adequate and points out
that the FBI’s laboratory is one of the largest and most comprehensive
forensic laboratories in the world. Our audit report recognizes the
significant amount of work performed at the FBI laboratory and does
not question the work that is performed on evidence within the
laboratory. However, the size and scope of the laboratory do not
demonstrate the effectiveness or adequacy of the management of the
evidence held within the laboratory. Our audit concludes that the
management of evidence as it passes through the laboratory would
have been significantly enhanced had a laboratory information
management system been fully and effectively implemented.

      The FBI’s response also states that improvements to the
laboratory’s information management system are required, rather than
the establishment of a new system. The FBI is currently utilizing a
                                 - 40-
Microsoft Access database to document when a piece of evidence is
received, when a test has been completed on the evidence, and when
it is released from the laboratory. However as pointed out in the
report, the release of a piece of evidence is not always documented
adequately. As a result, laboratory management cannot determine
what evidence is contained within the laboratory at any given point in
time. Additionally, the database system utilized by the laboratory also
cannot reasonably pinpoint where a piece of evidence is at any given
point in time. While we agree that the laboratory has an information
management system in place, the system has limited functionality.
This limited functionality led the FBI to enter into the LIMS contact to
acquire a more effective system. We believe that the FBI either needs
to make significant improvements to the existing information
management system or acquire a new system that provides laboratory
management the ability to more effectively manage laboratory
operations.

      2. The FBI response states that our report implies the FBI had
singular control over the system development and process, although
the report acknowledges that the vendor also bears some
responsibility for the project’s difficulties. As the response suggests,
our audit found that both the FBI and the contractor were responsible
for the outcome of the LIMS project. However, the FBI was solely
responsible for establishing the system requirements and ensuring that
the contractor met those requirements. We noted in the report that
the FBI has recently made significant strides in the development and
management of information technology projects. However, the LIMS
project did not benefit from these new management practices.

      The FBI’s response also notes that the contract termination
settlement is far less than the full contract amount. We agree.
However, the FBI incurred costs in addition to the settlement amount,
such as the personnel involved in the development, management, and
termination of the project. More important is the fact that despite
having worked on the development of an information management
system since 1998 and reprogramming funds from other Laboratory
Division programs in order to pay for the project, the FBI’s laboratory
remains without a modern system.

      3. The FBI requests that the vendor’s name and specific dollar
amounts of the project be redacted from the report to protect the
future business opportunities of the vendor and future requests for
proposal issued by the FBI on similar projects. After careful review

                                 - 41-
and consideration of the FBI’s request, we have decided to not redact
the information for the following reasons: (1) the contractor’s name
and the dollar amounts paid to JusticeTrax are public information;
(2) the public has a right to know the name of the system contractor;
and (3) our report is clear that both the FBI and JusticeTrax were
responsible for contributing to LIMS’ failed implementation. For
example, we fault the FBI for not adequately documenting system
security requirements and for its overall poor project management,
and we fault JusticeTrax for not meeting the FBI's security
requirements once they were established and for not providing the
web-enablement capabilities for the LIMS software as required by the
contract. Therefore, we believe that our report is accurate as to which
party was responsible for the various system implementation failures.
Finally, because the name of the contractor and the dollar amounts
paid to it are public information, we do not agree that disclosing the
information in this report is inappropriate or will have an effect on
future FBI request for proposals.

Status of Recommendations

1. Resolved. The FBI agrees with this recommendation. In its
response to the draft report, the FBI states that the Laboratory, in
conjunction with the Office of the Chief Information Officer (OCIO)
began a Business Process Management initiative to focus on the
development, improvement, and reengineering of processes that
govern the way laboratory services are provided. This
recommendation can be closed when we receive documentation
demonstrating that the FBI has considered whether a COTS workflow
system or laboratory information management system in use or under
development within the federal government will meet the needs of the
FBI’s laboratory.

2. Resolved. The FBI agrees with this recommendation. In its
response to the draft report, the FBI states that it is committed to
ensuring all current and future Laboratory Division information
technology (IT) projects comply with OCIO IT management processes,
including the Life Cycle Management Directive (LCMD). Additionally,
the FBI Laboratory Division has established a Project and Account
Management System (PAMS), which provides managers and users with
real-time, online financial information. PAMS is a centralized, remotely
accessed, web-based system that captures, tracks, and manages the
laboratory’s investments. This recommendation can be closed when
we receive documentation demonstrating that any project to provide a

                                 - 42-
laboratory information management system not only follows the FBI’s
LCMD but is overseen by an experienced IT project manager.

3. Resolved. The FBI agrees with this recommendation. In its
response to the draft report, the FBI states that the Laboratory
Division is committed to ensuring that all current and future IT
projects comply with the FBI’s OCIO IT management processes,
including the LCMD. Additionally, the Laboratory Division established a
Major Acquisition Review Committee (MARC), comprised of the
Division’s Deputy Assistant Directors, Section Chiefs, and the Unit
Chief of the Planning and Budget Unit. The MARC serves as the review
entity for Live Cycle Phased Reviews, and reviews will be performed on
all laboratory acquisition requests totaling $250,000 or more, all IT
requests totaling $50,000 or more, and all Laboratory Division projects
totaling $100,000 or more. This recommendation can be closed when
we receive documentation demonstrating that the FBI has established
cost controls to ensure that training or other expenses are not incurred
prematurely in the development of a successor to the LIMS project.




                                 - 43-
